<html>
<title> - EXAMINING PATHWAYS TOWARD COMPLIANCE OF THE NATIONAL AMBIENT AIR QUALITY STANDARD FOR GROUND-LEVEL OZONE: LEGISLATIVE HEARING ON S. 2882 AND S. 2072</title>
<body><pre>[Senate Hearing 114-363]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-363

   EXAMINING PATHWAYS TOWARD COMPLIANCE OF THE NATIONAL AMBIENT AIR 
QUALITY STANDARD FOR GROUND-LEVEL OZONE: LEGISLATIVE HEARING ON S. 2882 
                              AND S. 2072

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 22, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
                               ___________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
21-264 PDF                  WASHINGTON : 2016                   
               
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9afdeaf5daf9efe9eef2fff6eab4f9f5f7b4">[email&#160;protected]</a>  
              
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                             
                             
                             ----------                              

              Subcommittee on Clean Air and Nuclear Safety

             SHELLEY MOORE CAPITO, West Virginia, Chairman
DAVID VITTER, Louisiana              THOMAS R. CARPER, Delaware
JOHN BARRASSO, Wyoming               BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JEFF SESSIONS, Alabama               SHELDON WHITEHOUSE, Rhode Island
ROGER WICKER, Mississippi            JEFF MERKLEY, Oregon
DEB FISCHER, Nebraska                EDWARD J. MARKEY, Massachusetts
JAMES M. INHOFE, Oklahoma (ex        BARBARA BOXER, California (ex 
    officio)                             officio)
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 22, 2016
                           OPENING STATEMENTS

Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     1
Hatch, Hon. Orrin G., U.S. Senator from the State of Utah, 
  prepared statement.............................................     3
Manchin, Hon. Joe, U.S. Senator from the State of West Virginia, 
  prepared statement.............................................     4
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    22
Flake, Hon. Jeff, U.S. Senator from the State of Arizona.........   106

                               WITNESSES

Karperos, Kurt, P.E., Deputy Executive Officer, California Air 
  Resources Board................................................    25
    Prepared statement...........................................    27
Rice, Mary B., M.D., Vice-Chair, American Thoracic Society 
  Environmental Health Policy Committee, and Assistant Professor 
  of Medicine, Beth Israel Deaconess Medical Center, Harvard 
  Medical School BIDMC...........................................    62
    Prepared statement...........................................    64
Chesley, Andrew T., Executive Director, San Joaquin Council of 
  Governments, Stockton, California..............................    74
    Prepared statement...........................................    77
Raymond, Mark, Uintah County Commissioner and Chair, Uintah 
  County, Utah...................................................    82
    Prepared statement...........................................    84
Hamer, Glenn, President and CEO, Arizona Chamber of Commerce and 
  Industry.......................................................    89
    Prepared statement...........................................    91

                          ADDITIONAL MATERIAL

Statement on Examining Pathways Toward Compliance for the 
  National Ambient Air Quality Standard for Ground-Level Ozone: 
  Legislative Hearing on S. 2882 and S. 2072.....................   123

 
   EXAMINING PATHWAYS TOWARD COMPLIANCE OF THE NATIONAL AMBIENT AIR 
QUALITY STANDARD FOR GROUND-LEVEL OZONE: LEGISLATIVE HEARING ON S. 2882 
                              AND S. 2072

                              ----------                              


                        WEDNESDAY, JUNE 22, 2016

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Dirksen Senate Office Building, Hon. Shelley Moore Capito 
(chairwoman of the subcommittee) presiding.
    Present: Senators Capito, Carper, Fischer, Inhofe, Cardin, 
and Whitehouse.
    Also present: Senator Flake.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you all for being here. I would like 
to start the committee hearing on the ozone standard bill of 
the Clean Air and Nuclear Safety Subcommittee ozone hearing.
    I thank all the folks who are here to testify for their 
knowledge and for their willingness to come.
    So I am going to take 5 minutes and make an opening 
statement, and then I will turn to the Ranking Member.
    And the Chairman of the full committee, I would like to 
thank you for being here with us as well.
    So today we are here to discuss the pathways to compliance 
for the National Ambient Air Quality Standards for ground-level 
ozone and to examine two pieces of legislation that offer real 
solutions to improve EPA's ozone standard regulations, which 
are, in my view, overly complicated and duplicative. One of 
these bills is my Ozone Standards Implementation Act of 2016, 
which is co-sponsored by Senator Flake from Arizona and Senator 
Manchin from West Virginia, and several of my Republican 
colleagues, including Chairman Inhofe.
    Last October EPA announced a stricter ozone standard, 
dropping the acceptable amount of ozone to 70 parts per billion 
from 75 parts per billion. Currently, there are dozens of 
counties--I was speaking with Mr. Hamer there earlier about 
this--with the 2008 ozone standard, showing us that EPA has yet 
to fully implement the previous standard. Moreover, EPA 
drastically missed its implementation deadlines and failed to 
designate non-attainment areas under the 2008 standard until 
May 2012.
    My home State of West Virginia was one of a dozen States to 
formally oppose the rule. Instead of encouraging States and 
stakeholders by showing pathways toward compliance for the 2008 
standard, EPA decided to double down and enable an even tougher 
standard before all areas had a chance to get into compliance.
    Proponents of the new standard may claim that it allows for 
cleaner air for our citizens, but that is exactly what we are 
getting under the previous 2008 standard. The EPA itself 
reported that the Nation's air quality has improved 
dramatically over the past several decades. Regulated emissions 
from coal-fired power plants have been reduced 60 percent over 
the last 30 years. And these reductions have been accomplished 
while electricity from coal has increased approximately 140 
percent.
    If the EPA would merely allow the previous 2008 standard to 
be fully implemented, emissions would be cut by 36 percent. Yet 
the Administration has decided to continue its assault on 
baseload power sources while disregarding the economic impacts 
of newer and harsher regulations.
    To address these issues today, we will examine two bills 
that would protect economic growth and job creation while 
ensuring air quality continues to improve. These are both 
bipartisan bills and have been endorsed by over 200 trade 
organizations representing sectors and jobs across the economy, 
from manufacturing to energy, construction, transportation, 
railroads, iron and steel, consumer products, textiles, pulp 
and paper, mining and agriculture, and the chambers of 
commerce.
    In S. 2882, the bill I introduced, No. 1, it ensures that 
EPA issues timely implementation regulations. Remember 
previously in my statement I talked about how long it took for 
EPA to do this previously. It ensures that for certain ozone 
non-attainment areas States are not required to include 
economically unfeasible measures in their plans. Charges that 
the EPA's mandatory review of NAAQS from 5 to 10 years to 
combat rushed timelines and directs the EPA to submit a report 
to Congress regarding the impacts of emissions from foreign 
countries on NAAQS compliance.
    S. 2072 is sponsored by Senators Hatch and McCaskill, which 
would require the EPA to set up an early action compact program 
that allows counties to take preemptive measures to avoid a 
non-attainment designation.
    So, without objection, I would like to enter the following 
documents into the record: Senator Hatch's statement for the 
record, Senator Manchin's statement for the record, a letter of 
support from the Utah Department of Environmental Quality, a 
letter of support from over 200 impacted industries from across 
the country, a letter of support from 60 conservative 
organizations, and a letter of support from the Industrial 
Energy Consumers of America. So I have Senator Manchin's 
statement here, and I will submit for the record without 
objection.
    [The referenced information follows:]

                   Statement of Hon. Orrin G. Hatch, 
                  U.S. Senator from the State of Utah

    Chairman Capito, today I wish to speak about ozone and 
current Environmental Protection Agency (EPA) ozone standards.
    Ozone is a naturally occurring phenomenon. In many ways, 
ozone is good for our planet because it shields us from the 
sun's harmful ultraviolet rays. On the other hand, scientists 
tend to agree that extreme concentrations of ozone, especially 
when it hovers over cities, can have adverse health effects on 
human populations. Because of this, the EPA regulates ozone 
levels across the country under the authority of the Clean Air 
Act.
    Now I understand the importance of keeping America's air 
clean, especially if too much ozone presents a public health 
risk. But if we are going to alter Federal ozone standards, 
revisions should be both based on science and mindful of 
economic impacts. Regrettably, EPA's recently released and 
updated National Ambient Air Quality Standards fail to meet 
these two criteria.
    While EPA's revisions may be well intended, the agency 
misses several critical points. For example, in a rush to 
create national standards, EPA glossed over regional 
environmental variables. EPA chose to simply establish a 
blanket, nationwide standard for permissible atmospheric ozone, 
and in doing so they ignored the science concerning naturally 
occurring ozone--or what many call ``background'' or 
``ambient'' ozone, which varies from region to region.
    Unfortunately, for many areas across the West, this new 
standard is either at or near background ozone levels. As a 
result, EPA's new standard will disproportionately impact many 
Western communities. Even before the updated standard, if you 
happened to live in an area with high levels of ambient ozone 
you were likely already at risk of being designated as living 
in a ``non-attainment'' area. Now that the standard has become 
more stringent, it is likely to push these areas over the edge. 
And to be clear, a non-attainment designation can result in 
significant and detrimental economic consequences for a 
community.
    For these reasons, while I recognize the importance of 
protecting our environment and monitoring air quality, I 
question the practicality of EPA's recently updated standards. 
In my view, as a matter of responsible governance, we need to 
push back against these types of one-size-fits-all Federal 
mandates that inadequately account for regional dynamics. In 
this case, especially due to the high potential for economic 
ramifications, ozone regulations need to be based on sound 
science and must consider regional ozone levels that occur 
regardless of human contribution.
    Chairman Capito, at a time when Americans across the 
country are struggling to regain their footing and make ends 
meet, our Federal Government should be facilitating job 
creation and economic expansion, not stifling these efforts. 
Without a doubt, we should be exploring ways to improve our 
environment, but I believe that economic and environmental 
progress are not mutually exclusive. The choice between jobs 
and the environment does not have to be a zero-sum game. With 
this in mind, I have introduced legislation, S. 2072 alongside 
my colleague and friend, Senator Claire McCaskill. Our bill 
would direct the EPA to implement a program allowing 
communities to enter into voluntary, cooperative agreements 
with the EPA to craft local solutions that improve air quality 
in compliance with Federal standards.
    Specifically, existing law is failing to energize efforts 
to improve air quality because it does not permit the EPA to 
give at-risk communities any ``early action'' credit for 
environmentally beneficial actions taken before a non-
attainment designation. Instead, the EPA can only give credit 
for improvements that are made after a designation is declared 
and the damage is already done. Early action cooperative 
agreements help address this problem, and they have a strong 
precedent and a proven track record.
    As background, in 2002 the EPA initiated a plan similar to 
the one outlined in S. 2072, called the Early Action Compact 
Program (the Program), which allowed areas struggling to comply 
with Federal standards to enter into an agreement with the EPA. 
The goals of these agreements were to improve air quality, to 
avoid a non-attainment designation during implementation, and 
to provide credits for investments made as part of the compact. 
Under the Program, 29 areas from over 10 States entered into 
agreements by December 2002. Of those areas, 14 successfully 
deferred non-attainment status and 15 achieved attainment. 
Ultimately, only one area--Denver, Colorado--failed to complete 
the Program. The Program's ability to provide flexibility 
provided communities with the tools they needed to control 
emissions more efficiently. Most importantly, the Program 
achieved success in a way that didn't come at the cost of jobs 
and the economy.
    Unfortunately, far left environmental activists--more 
interested in blocking industry than preserving our 
environment--sued the EPA. By 2007 the EPA scrapped the Program 
due to litigation which argued that there was no authority 
under the Clean Air Act for the program. Thus, after 2007, the 
Program ended.
    The legislation I introduced with Senator McCaskill will 
give clear authorization and direct the EPA to implement a 
program similar to the program of the early 2000s. Our bill 
will allow vulnerable areas across the country to again have 
the option of taking early action at the local level where it 
is most effective. This way, our communities can actually 
improve air quality and avoid a non-attainment designation and 
the negative economic consequences that come with it. If 
enacted, the EPA will be granted clear authority to give early 
action credit to at-risk areas across the country looking for 
help in complying with Federal standards. In turn, communities 
will be able to propose local, proactive solutions, in 
voluntary cooperation with the EPA, to improve air quality 
without risk.
    To conclude, Chairman Capito, compromise isn't a bad word. 
You understand that improving good governance, the economy, and 
the environment is not a zero-sum game. Empowering our cities 
and counties with tools to implement locally crafted solutions 
to our problems will always deliver better results than big, 
one-size-fits-all Federal mandates, standards, and rules 
crafted by unelected bureaucrats in Washington.

                    Statement of Hon. Joe Manchin, 
              U.S. Senator from the State of West Virginia

    I want to thank Chairman Capito, Ranking Member Carper and 
the subcommittee for holding this hearing on S. 2882--the Ozone 
Standards Implementation Act of 2016.
    Senator Capito's leadership on this issue is to be 
commended, and I am delighted to be a co-sponsor with her on 
this legislation. Her continued work on this issue is of 
critical importance to our Nation, and I fully support her 
efforts.
    Our Nation has made great strides in achieving cleaner air. 
Since 1980 ozone levels have dropped 33 percent--this trend 
will continue as States implement the 2008 ozone standard and 
additional counties reach attainment. But States need time to 
catch up.
    As the committee is aware, I previously sponsored 
legislation with Senator Thune regarding the Environmental 
Protection Agency's 2015 national ambient air quality standards 
(NAAQS) for ozone. That bill--the Clean Air, Strong Economies 
Act--would have prevented the EPA from finalizing a new rule 
lowering the standard for ozone causing emissions unless and 
until 85 percent of non-attainment counties were in compliance 
with the 2008 standard.
    Despite our efforts, the EPA moved forward with 
promulgating a new standard that imposes overlapping and 
burdensome new schedules on States and has the potential to 
cause both immediate and long-term economic harm across our 
Nation. In fact, the EPA estimates that the new 70 parts per 
billion standard will increase the number of counties impacted 
from 217 counties to 958 counties.
    That represents nearly one-third of the Nation, which will 
experience negative effects on job growth and development. 
Businesses will have to install expensive control technology 
and acquire a PSD permit in order to build or expand operations 
and create jobs in these counties. Yet, the EPA itself 
estimates that almost the entire Nation will be in compliance 
with the 2008 standard by 2025 using current methods.
    The new EPA standard will hit our manufacturing community 
hard at a time when we are desperately in need of economic 
development in many areas of the country, including Appalachia.
    S. 2882 is a common sense measure that allows for 
thoughtful implementation of ozone standards and reforms the 
law to improve how and when the national ambient air quality 
standards (NAAQS) are reviewed and updated.
    Specifically, this bill will ease the negative effects of 
the new standard by extending compliance deadlines and 
facilitating implementation of the rule in a pragmatic, 
thoughtful way. It allows States to catch up and prevent undue 
economic harm.
    The bill also changes the required review period for NAAQS 
from 5 years to 10 years. In practice, a 10-year review period 
is more appropriate particularly in light of the fact that the 
EPA is not meeting the existing 5-year deadline.
    For example, the next major NAAQS will be for particulate 
matter (PM). The statutory deadline by which EPA must 
promulgate a new PM standard is 2017, but the EPA has stated it 
will likely need until 2021--that's 9 years, not 5 years.
    The bill also authorizes the Administrator of the EPA to 
consider technological feasibility as factor when revising 
these standards and provides a pathway for States to seek 
relief in certain exceptional situations.
    When this bill recently passed the House, the National 
Association of Manufacturers commented that, it ``would ensure 
continued air quality improvements across the country, while 
better aligning the rule's requirements with the realities of 
the economy, technology and existing policies.''
    S. 2882 bill will provide greater predictability and 
certainty for American businesses while continuing the national 
trend toward cleaner air. I commend Senator Capito and the 
subcommittee for its consideration of this legislation and urge 
the full committee to pass the bill as soon as possible.
    Thank you.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Capito. Hearing no objection, I would like to 
recognize the Ranking Member and recognize him for 5 minutes 
for an opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair. Thank you for holding 
our hearing today.
    I do want to thank each of our witnesses. Some of you have 
been here before. It is nice to see you again, whether it is 
your first time or not your first time. We are delighted that 
you are here. We welcome your testimony and your counsel for 
all of us.
    Today is a day to remember not just because they are having 
a sit-in over in the House of Representatives; that is not 
memorable enough. But this morning a number of our colleagues, 
Senator Inhofe, myself, other members of this committee had the 
privilege of witnessing the signing of a major piece of 
environmental legislation, something that hasn't happened in 
this country in really a couple of decades. Today the Frank R. 
Lautenberg Chemical Safety Act for the 21st Century was signed 
into law, due in no small part to the good work of Senator Jim 
Inhofe, Chairman of our full committee, David Vitter, and 
others. Also in a supporting role here, this young man here to 
my left, Ben Cardin, our colleague from Maryland.
    This legislation overhauls a 40-year-old law that never 
worked, a law that was supposed to regulate chemicals used in 
products that we rely on every day. It never worked in 40 
years. Finally we just worked through all of our differences 
and decided to replace it with legislation that will do good 
things for our environment, do good things for our health, 
including especially the health of young people, very young 
people and very old people, and also provide businesses with 
certainty and predictability that they need in order to be 
successful, grow jobs, create jobs, especially in the 
manufacturing sector.
    The legislation was built off of work done by Frank 
Lautenberg, a former colleague from New Jersey. He was a true 
champion of chemical safety. It was fitting that it is on the 
same day our subcommittee discusses another of Frank 
Lautenberg's passions, and that is clean air. For years, 
Senator Lautenberg and I sat together, along with Ben Cardin 
and our Chairman. He was fighting for clean air all those 
years, for Americans.
    Frank and I, and Ben Cardin as well, we represent something 
I called America's tailpipe, an area of our country where 
emissions from other States, especially my native West 
Virginia, Ohio, Indiana, Illinois, Kentucky, Tennessee, they 
put bad stuff up in the air in order to get cheap electricity, 
and it just drifts, with the westerly wind, over to our States 
and fouls our air and makes us have to spend more money to 
clean up our air, and we end up with more expensive energy. Not 
fair.
    But for Senator Lautenberg the fight was deeply personal. 
He had a sister who had problems with asthma, and she was a 
member of the school board, and she always had a machine in her 
car that she would use if she had an asthma attack. One day she 
was at a school board meeting and suffered a really severe 
asthma attack, and raced to try to get to her car and didn't 
make it. So for Frank, clean air and asthma are really very 
special issues. Dad, I think, worked in a factory, maybe a silk 
factory, for many years in New Jersey and suffered lung 
impairment as a result of his work.
    So I wish that the situation with Frank's late sister and 
his dad were unique and the kind of things that didn't happen 
much, asthma or other lung disorders, but they are not. There 
are millions of people in this country who live with asthma. A 
lot of them are young. According to the Centers for Disease 
Control, almost 6.5 million kids in this country have been 
diagnosed with asthma. That is 6.5 million kids who worry that 
they may not make it to their inhaler in time if they have an 
asthma attack.
    For decades we have known that ozone pollution is linked to 
serious health problems like asthma attacks, strokes, heart 
attacks, and other respiratory ailments. More recently, ozone 
has even been linked to early deaths.
    Since 1970 Congress has asked EPA to provide our country 
with national health standards protecting Americans from the 
most harmful and common air pollutants. Since 1970. EPA 
promptly did so in 1971, setting the first national health 
standard that covered ozone pollution. Congress wanted to make 
sure that the ozone health standards reflected the best science 
available, which is why Congress requires EPA to review the 
standard every 5 years. It is not something that EPA does on 
their own; that is a requirement that they face under the law.
    Last year EPA finished its congressional mandated review of 
the 2008 ozone health standard. After reviewing more than 1,000 
scientific studies, EPA has concluded the 2008 ozone health 
standard was too weak and no longer adequately protected public 
health.
    Despite what many may say today, the EPA rule is purely a 
statement of fact. To protect our health, we need less ozone 
pollution. To protect the 6.5 million kids with asthma, we need 
less ozone pollution in our air.
    Finally, many of our biggest emitters today of ozone 
pollution, which include coal plants, older diesel engines, are 
already scheduled to be cleaned up, and this means the costs of 
compliance are not as high as they might have been 2, 4, or 6 
years ago. I look forward to hearing today how we might meet 
these new ozone standards to protect public health and how we 
can meet these new health standards to ensure that we all 
achieve cleaner and healthier air.
    I would just finally say advances in science and technology 
that we use to understand what is making our air dirty has 
given us a more thorough understanding of how we can make our 
atmosphere safer for all of us, and I just hope we now seize 
the opportunity, seize the day, which is really not an 
opportunity at all, but I think a responsibility to do a good 
job today of cleaning up our air so that generations of 
Americans can live healthier lives and longer lives, and also 
still have a good job.
    Thanks so much.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    I would like to thank the Chairman for having this hearing 
today and thank our witnesses for taking the time to be here. 
Today is a monumental day. This morning, many of my colleagues 
and I had the privilege to witness the signing of a major piece 
of environmental legislation--the Frank R. Lautenberg Chemical 
Safety for the 21st Century Act was signed into law, which 
overhauls a 40-year-old law that regulates thousands of 
chemicals used in products Americans rely on every day.
    The bill that was signed today builds off the work done by 
the late Senator Frank Lautenberg, who was a true champion of 
chemical safety. I think it is fitting that on the same day our 
subcommittee discusses another of Senator Lautenberg's 
passions--clean air.
    For years, Senator Lautenberg and I sat together on this 
committee fighting for cleaner air for all Americans. We both 
represented States whose residents live in what I like to call 
``America's tailpipe.'' Other States' dirty emissions from cars 
and power plants drift east to our States, impacting the health 
of our constituents.
    For Senator Lautenberg, the fight was deeply personal. It 
is hard to forget his story. His sister was diagnosed with 
asthma and had a machine in her car that would help her breathe 
during asthma attacks. One day at a school board meeting, his 
sister felt an asthma attack coming on. She raced to her car to 
get to her machine. Tragically, she didn't make it in time and 
as a result passed away.
    I wish this were a unique case--but sadly, there are 
thousands of mothers, fathers, brothers and grandparents in 
this country that have lost a loved one because of asthma.
    Millions in this country are living with asthma. According 
to the Centers for Disease Control (CDC), 6.3 million children 
in this country have been diagnosed with asthma. That means 
that more than 6 million children worry every day if they will 
make it to their inhaler in time if they have an asthma attack.
    For decades, we have known that ozone pollution is linked 
to serious health problems like asthma attacks, strokes, heart 
attacks and other respiratory ailments. More recently, ozone 
even has been linked to early deaths.
    Since 1970 Congress has asked EPA to provide the country 
with national health standards protecting Americans from the 
most harmful and common air pollutants.
    The EPA promptly did so in 1971, setting the first national 
health standard that covered ozone pollution. Congress wanted 
to make sure the ozone health standard reflected the best 
science available, which is why Congress required the EPA to 
review the standard every 5 years.
    Last year, the EPA finished its congressionally mandated 
review of the 2008 ozone health standard. After reviewing more 
than a thousand scientific studies, the EPA has concluded the 
2008 ozone health standard was too weak and no longer 
adequately protected public health.
    Despite what many may say today, the EPA's rule is purely a 
statement of fact--to protect our health, we need less ozone 
pollution. To protect the 6.3 million children with asthma, we 
need less ozone pollution in our air. Fortunately, many of 
today's biggest emitters of ozone pollution--such as old coal 
plants and older diesel engines--are already scheduled to be 
cleaned up. This means the costs of compliance are not as high 
as they might have been 2, 4 or 6 years ago.
    Since Senator Lautenberg's sister passed away over 30 years 
ago, we have made remarkable progress in cleaning up harmful 
ozone air pollution. But let us honor her memory by never 
letting the challenge we face to ensure our air is clean and 
healthy for children and adults alike slip out of sight. 
Advances in science and the technology we use to understand 
what is making our air dirty have given us a more thorough 
understanding of how we can make the atmosphere safe for 
everyone. We must now seize the opportunity--which is really 
not an opportunity at all, but rather a responsibility--to do a 
good job today of cleaning up our air so that the generations 
of tomorrow can live healthier and longer lives.

    Senator Capito. Thank you, Senator.
    And with that I would like to welcome the witnesses. I will 
just introduce you as you begin your testimony. I would ask 
that you keep your statements to 5 minutes, as you know. I know 
you have submitted written statements for the record.
    Mr. Kurt Karperos, who currently serves as Deputy Executive 
Officer on the California Air Resources Board. Welcome.

  STATEMENT OF KURT KARPEROS, P.E., DEPUTY EXECUTIVE OFFICER, 
                 CALIFORNIA AIR RESOURCES BOARD

    Mr. Karperos. Good afternoon, Madam Chair, Ranking Member 
Carper, and members of the subcommittee. My name is Kurt 
Karperos. I am Deputy Executive Officer for the California Air 
Resources Board. In this role I am responsible for 
implementation of the Clean Air Act statewide, including 
meeting Federal air quality standards in areas with the most 
persistent pollution, the greater Los Angeles area, that we 
refer to as the south coast, and the San Joaquin Valley.
    Today I want to cover three points in my testimony: first, 
meeting Federal health-based standard for air quality is 
achievable in California; second, economic growth and 
development, while taking steps to reduce emissions, is not 
only possible, it is a reality in California; and third, 
delaying the standards, as Senate bill 2882 and 2072 would do, 
is unnecessary and would negatively impact the health and well-
being of millions of people.
    About one-third of California's 38 million residents live 
in regions with pollution levels that exceed the standard. That 
includes almost 5 million children, with nearly half a million 
suffering from asthma. California supported EPA's setting of 
the more health protective ozone standard because reaching that 
standard would reduce premature mortality, emergency room 
visits for asthma, hospitalizations, and lost work days and 
school days. Simply putting, meeting the ozone standard is a 
public health imperative.
    California has a long history and successful history of 
meeting health-based standards. Of California's 19 areas that 
once exceeded the 1-hour ozone standard and the original 8-hour 
ozone standard, only 4 exceed those today. Continued progress 
has occurred in the San Joaquin Valley. This extreme non-
attainment area now meets the 1-hour ozone standard. And just 
last week the San Joaquin Valley Air District adopted a plan to 
meet the 8-hour ozone standard.
    The south coast is more challenging, but progress is also 
significant. The region once measures 1-hour ozone values above 
the standard on over 200 days per year. Today that has dropped 
to 10. Similarly, the number of days over the 8-hour standard 
has been cut in half since 1990. This progress has occurred at 
the same time that California's population has increased by 
over 25 percent and the State's gross domestic product has more 
than doubled.
    At the same time we have been reducing emissions, 
California's economy has continued to grow and prosper. Over 
the last year, California grew to be the world's sixth largest 
economy, and job growth in the State over the last 12 months 
was 2.8 percent, outpacing the national average of 1.9 percent. 
This while pursuing the Nation's most aggressive air quality 
and climate policies.
    Today the air pollution control industry in California 
generates approximately $6 billion a year and employs over 
30,000 people. The clean energy sector generates an additional 
$27 billion a year and employs approximately 125,000 people. 
Looking forward, EPA estimates that achieving the new ozone 
standard would save Californians an estimated $0.4 billion to 
$1.3 billion per year when accounting for both the cost of 
reducing emissions and avoided costs of health care.
    With its health-based air quality standards, meaningful 
deadlines, and requirements for comprehensive plans, the Clean 
Air Act has been the tool for achieving this combined air 
quality and economic success. The Clean Air Act requires early 
comprehensive planning. Delay can increase costs. And 
California uses the early planning required by the Clean Air 
Act as a tool to minimize costs in the long-term. In fact, 
California will adopt a plan this year that will not only 
provide the reductions needed to meet the 75 parts per billion 
ozone standard in 2031; it will also provide most of the 
emissions reductions needed for the new 70 parts per billion 
ozone standard in 2037.
    California has used advanced technology provisions of the 
Act to drive innovation. Electric cars are the prime example. 
And now California is working with EPA to demonstrate that 
trucks can be 90 percent cleaner by optimizing the technologies 
on the trucks today. Finally, working with EPA, businesses, and 
the public, we take advantage of the flexibility of the Clean 
Air Act to tailor control strategies to best fit California.
    California's success is proof that Senate bill 2882 and 
2072 are unnecessary. The bills would mean more people would 
breathe dirty air longer because they push off deadlines, erode 
requirements for incremental progress, and undermine the Clean 
Air Act's requirements for comprehensive air quality 
strategies. Senate bill 2882 would inappropriately insert 
control costs into EPA's science-based process for setting air 
quality standards. How healthful our air needs to be is not a 
function of the cost to clean it up; it is a function of what 
air pollution does to the human body.
    In closing, let me stress that meeting the Federal health-
based ozone standards is achievable. Clean Air Act provisions 
provide the needed flexibilities to effectively accomplish 
these goals, including in the areas with the Nation's most 
persistent pollution problems. Second, setting healthful air 
against economic prosperity is a false choice, as California 
has demonstrated. Third, delaying the standards will harm the 
health and well-being of millions of people in this country. 
The San Joaquin Valley is home to high rates of poverty and 
environmental pollution, so it is especially critical to 
continue progress in that region. The economic costs of health 
care associated with polluted air are substantial and far 
exceed the costs of cleaner technologies.
    Thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Karperos follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Capito. Thank you.
    Our next witness is Dr. Mary Rice, who is the Vice-Chair on 
the American Thoracic Society's Environmental Health Policy 
Committee. She also works as an Assistant Professor of Medicine 
at the Beth Israel Deaconess Medical Center, an affiliate of 
Harvard Medical School. And I know she has been here at least 
one other time because I remember her testimony. Thank you.

STATEMENT OF MARY B. RICE, M.D., VICE-CHAIR, AMERICAN THORACIC 
 SOCIETY ENVIRONMENTAL HEALTH POLICY COMMITTEE, AND ASSISTANT 
 PROFESSOR OF MEDICINE, BETH ISRAEL DEACONESS MEDICAL CENTER, 
                  HARVARD MEDICAL SCHOOL BIDMC

    Dr. Rice. Thank you.
    Chair Capito, Ranking Member Carper, and other members of 
the subcommittee, thank you for the opportunity to testify 
today on behalf of the American Thoracic Society about why 
EPA's new ozone standard and the Clean Air Act requirement of 
regularly reviewing and implementing health standards for the 
major air pollutants are so good for the health of American 
adults and children.
    I am a pulmonary and critical care physician at Beth Israel 
Deaconess Medical Center at Harvard Medical School, and I care 
for adults with lung disease, many of whom suffer from asthma 
or chronic obstructive pulmonary disease, commonly known as 
COPD.
    Let me begin with a discussion of ground-level ozone, also 
known as smog. Ozone pollution is bad for people with lung 
disease, and this has been known for decades. Ozone is a 
powerful oxidant that irritates the tissue of the lung and 
damages it. Hundreds of research studies in different areas 
across the U.S. and around the globe have demonstrated that 
when people with common diseases like asthma or COPD are 
exposed to ozone, they get sicker.
    One of my patients with severe asthma tells me that on high 
ozone days in the summertime he feels his chest tighten, and he 
can't get enough air. He stays home from work, and he uses his 
inhaler around the clock, but it is not enough; and that is 
when he calls me, asking me for stronger medications. One 
summer his breathing difficulties were so severe that he landed 
in the hospital twice, and he had to take a leave of absence 
from his job.
    This is just one story. But hundreds of studies have 
demonstrated that increases in ozone result in children and 
adults having to increase use of medication to control asthma, 
having to miss school or work to visit the doctor or going to 
the emergency room, and hospitalization for respiratory 
illness. For some, especially the most vulnerable people, such 
as older people and people with COPD, high ozone days can 
result in premature deaths.
    The more that scientists and physicians have studied the 
health effects of ozone, the more confident the medical 
community has become about ozone's harmful effects on the 
respiratory health of children, adults, and the elderly.
    The new ozone standard is based on literally hundreds of 
studies that demonstrate that the previous ozone standard of 75 
parts per billion was not sufficiently protective of human 
health because there are serious harms to human health at ozone 
levels below 75. These serious harms include high risk of 
asthma attacks for people with asthma, high risk of 
hospitalization for respiratory infection among babies and very 
young children, and a higher risk of death for older adults.
    What often gets lost is that ozone pollution is bad for 
otherwise healthy people, too. Research has shown that when 
normal healthy adults are exposed to ozone, including levels 
below the previous standard, lung function is reduced.
    Based on this wealth of medical evidence, professional 
medical societies across the country have called for a more 
protective ozone standard. These societies include the American 
Thoracic Society, the American Medical Association, the 
American Academy of Pediatrics, and others. The evidence of 
health effects of ozone above 70 parts per billion, even among 
young and healthy adults, is conclusive and undisputed in the 
medical community. Based on this strong evidence, the U.S. EPA 
set a public health standard for ozone of 70, and this new 
standard is expected to improve lung health, prevent asthma 
attacks, and save lives.
    As a physician, I need to keep up with the pace of medical 
discovery and incorporate those advances in my care of 
patients. The pace of scientific discovery is rapid, and we 
need the U.S. EPA to review the most up to date medical 
evidence at regular intervals to ensure that we set health 
standards that are sufficiently protective. Our knowledge about 
the health effects of air pollutants and their treatment is 
growing dramatically each year, which is why the American 
Thoracic Society is very concerned about proposals that would 
relax the interval for reviewing air quality standards from 5 
to 10 years.
    When a new drug is approved to cure disease, we don't wait 
10 years to update practice guidelines. In the past 2 years 
alone, several new and important studies which advance our 
understanding of ozone's health effects have been published, 
and these include the studies showing that long-term exposure 
to ozone is associated with the development of acute 
respiratory distress syndrome, which is a major cause of 
mortality in American ICUs.
    Why would we delay 10 years to consider and act on new 
information that is showing the adverse health effects of air 
pollution? That is not consistent with the standard of care 
that my patients expect of me.
    My patients and every American depend on the U.S. EPA to 
review the most up to date evidence at regular intervals and 
keeping with the pace of medical progress and to establish and 
implement standards based on those reviews to protect the 
health of Americans. Above all, we must protect the health of 
the most vulnerable members of our society, including young 
children and the elderly, who have no other way of protecting 
themselves from the health effects of outdoor air pollution.
    I appreciate the opportunity to appear before the 
subcommittee, and I look forward to answering your questions. 
Thank you.
    [The prepared statement of Dr. Rice follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Capito. Thank you.
    Our next witness is Mr. Andrew Chesley. He is the Director 
of San Joaquin Council of Governments in California.
    Welcome.

STATEMENT OF ANDREW T. CHESLEY, EXECUTIVE DIRECTOR, SAN JOAQUIN 
          COUNCIL OF GOVERNMENTS, STOCKTON, CALIFORNIA

    Mr. Chesley. Good afternoon, Chair Capito, Ranking Member 
Carper, and members of the committee. My name is Andrew 
Chesley. I am the Executive Director of the San Joaquin Council 
of Governments in Stockton, California. My region is located 
just east of the Bay Area, and each morning 65,000 of our 
residents make their way into the East Bay to work. We are one 
of the fastest growing counties in California, with a median 
income well below the State of California average.
    I am here on behalf of the eight San Joaquin Valley 
Metropolitan Planning Organizations in Fresno, Kern, Keen, 
Madera, Merced, San Joaquin, Stanislaus, and Tulare. All are 
striving to seek was to address the underlying causes of 
poverty, poor health, and unemployment that rank our valley 
among the worst in the country.
    Silicon Valley covers an 8-county geographic area, and it 
is approximately 4 million people, about the size of West 
Virginia. We are known for our agricultural prowess, but we 
also have 3 of the 100 largest cities in the country, so on any 
given day our air quality challenges rival those of the Los 
Angeles Basin.
    As a valley, we will deliver over $40 billion in 
transportation projects over the next two decades if we are not 
tripped up through a labyrinth of air quality tests requiring 
massive coordination among numerous regional, State, and 
Federal agencies. These transportation projects put people to 
work, move agricultural goods to market, move freight from 
northern to southern California, and increase the mobility of 
Californians, all valuable public policy objectives.
    As of right now, we want to put the new resources and the 
facts back to work. I have attached Figure 1, which highlights 
the magnitude of the air quality challenge before us. We must 
reduce our pollution levels by over 90 percent over the next 
two decades to meet the 2015 ozone standard.
    I am here today to support a strong Clean Air Act with 
common sense revisions that actually results in improved air 
quality. I am also here to speak about the risks regions like 
the San Joaquin Valley face in implementing the Clean Air Act 
as we strive to maintain our region's crumbling transportation 
infrastructure.
    Since its adoption, the Clean Air Act has led to 
significant improvements in air quality and public health 
throughout our region. We support provisions of the Clean Air 
Act that call for review of health-based standards, clean air 
objectives that are technology forcing and clean air delays 
that ensure expeditious clean up and timely action. However, 
the Clean Air Act was last submitted in 1990. Over the last 25 
years, local, State, and Federal agencies and affected 
stakeholders have learned important lessons from implementing 
the law, and it is clear that a number of provisions of the Act 
are leading to unintended consequences and misdirected 
resources.
    I am here to support the San Joaquin Valley Air District's 
pursuit to, in a very small way, make the Clean Air Act more 
workable as part of Senator Capito's bill.
    In the San Joaquin Valley we have eight MPOs in one non-
attainment area. Sometimes we are eight MPOs, and sometimes we 
have to function as one. Action on any one MPO's regional 
transportation plan requires the other seven be not just in 
compliance with the Act but also with every process test in the 
endeavor. This means there are years where if one MPO fails, we 
all fail, and that results in losing transportation funding. We 
are connected at the hip in that way.
    We are in non-attainment for two ozone standards: three 
PM<INF>2.5</INF> standards and PM<INF>10</INF>. We anticipate 
being designated non-attainment for the 2015 ozone standard as 
well. Each of these standards requires a separate air quality 
plan which leads to multiple requirements and deadlines. 
Currently, there are 51 different air quality tests each of the 
eight transportation planning agencies must pass.
    Regionally, that is 408 tests before we spend $1 of Federal 
transportation funding. Eighty of those tests are for ozone 
alone. Failure of one test by one MPO can result in the loss of 
funding for all eight, and we are set to do this on a schedule 
that averages about once every 2 to 3 years.
    Needless to say, the process is complex and difficult to 
explain. We have tried to do that in Figure 2, which is 
attached. If any one of the processes is not completely in 
perfect harmony and done on schedule with the others, the 
result equals project delivery delays or the loss of funding. 
Should synchronization of 11 processes not occur, we face the 
potential for air quality conformity lockdown. Not that we fail 
to meet the standards, but we fail to meet the process 
requirements.
    It is something of a credit to the agencies involved that 
we have only once fallen into a lockdown, until now. It is 
inevitable that we will go into a lockdown in the coming weeks. 
Target review dates in the case have slipped for the EPA, 
placing us in a lockdown situation. In the Valley, about $450 
million in potential project delays are on the table. Our 
expectation is that we will exit the situation in 3 to 6 
months, quite likely missing whole construction seasons.
    Examples of projects that will be impacted are a brand new 
interchange, the widening of a local arterial that is presently 
a mish-mash of two three-lane segments, and an operational 
project to provide a continuous left turn lane for drivers on 
residential streets.
    How we get into a lockdown is complex, but this is nothing 
new. We have been there before, and we will get out of it 
again. But these will become more frequent and even 
intractable. Updating the Clean Air Act is needed to simplify 
and streamline the process because this is not the reason a 
region should lose transportation funding.
    In closing, we support a strong Clean Air Act with common 
sense revisions that actually result in improved air quality. 
We need a way to greatly reduce the almost biannual updates 
with 51 tests that place our transportation funding at risk 
constantly. Common sense amendments to the Clean Air Act that 
you are considering today will benefit our efforts in the San 
Joaquin Valley.
    Thank you very much.
    [The prepared statement of Mr. Chesley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Capito. Thank you.
    Our next witness is Mr. Mark Raymond, who serves as 
Commissioner and Chair of the Uintah County in Utah.
    Welcome.

   STATEMENT OF MARK RAYMOND, UINTAH COUNTY COMMISSIONER AND 
                   CHAIR, UINTAH COUNTY, UTAH

    Mr. Raymond. Good afternoon, Madam Chair and members of the 
committee. I am Mark Raymond, and I serve as the Chairman of 
the Uintah County Commission, located within the Uintah Basin 
in eastern Utah.
    I am honored to testify before the committee today to 
support the legislation being considered, S. 2882 and S. 2072, 
and discuss the issues we face in controlling ozone levels in 
the Uintah Basin, especially the unique occurrence of high 
winter ozone levels. Additionally, I want to thank our own 
Senator Hatch for his efforts to craft and introduce S. 2072 
and his willingness to work on this very difficult issue.
    Uintah County stands ready to assist in the passage of both 
legislative proposals that will allow communities to deal with 
ozone in a rational and responsible manner, without the scarlet 
letter of non-attainment under the Clean Air Act.
    Only two places in the Nation experience high levels of 
winter ozone, the Upper Green River Basin in Wyoming and the 
Uintah Basin in Utah, both very rural areas. Higher winter 
ozone levels are a result of a complex mix of geography, 
weather, and emission conditions. Winter ozone levels rise when 
snow cover and multiday temperature inversions occur. Snow 
reflects the sunlight back up to the cloud cover, and this 
becomes the perfect mix to allow pollutants to build and react 
to produce ozone.
    However, in the absence of these conditions, exceedances of 
EPA's ozone standard have not occurred. Ozone levels in the 
Uintah Basin became the focus of local and State governments 
and the EPA as we experienced several winters of high ozone 
levels, higher energy production, and EPA's new standard of 70 
parts per billion. Although it is clear that our energy 
industry contributes to ozone precursors, those same releases 
do not create high levels of ozone absent the precise weather 
conditions.
    The energy industry is responsible for 60 percent of our 
economy and 50 percent of our jobs. We need this industry to 
feed our economy, which in turn provides the resources to 
tackle our ozone problem. Under non-attainment, the industry 
and their investments will relocate to other areas, leaving 
few, if any, resources to fund and implement air quality 
controls.
    Voluntarily, we have spent years and millions of dollars to 
study, monitor, and model winter ozone. All we really know 
after this work is that this is a very complex issue that 
requires more years of research and monitoring to ensure that 
investments are effective and that our modeling is accurate in 
order to formulate appropriate controls.
    It is our fear that EPA, armed with the new ozone standard, 
will put Uintah Basin into a non-attainment status, and we will 
go into what could be decades of Clean Air Act compliance, 
which may not actually improve our air quality.
    While EPA's current ozone standard is the hammer over my 
community's head, the real driving force of our efforts is to 
improve our air quality for our citizens. The Clean Air Act 
provides limited tools for communities to proactively improve 
air quality and provides disincentives to reduce emissions 
ahead of a non-attainment designation.
    In 2002 the EPA initiated a strategy known as the Early 
Action Compact Program. This program allows communities to 
enter into compacts with EPA to improve air quality, hold off 
non-attainment designation during compact implementation, and 
allowed credits for investments made pursuant to the compact. 
Twenty-nine areas from 12 different States submitted signed 
compact agreements. Of the 29 areas, 14 areas were able to 
defer non-attainment status and 15 areas were successful and 
reached attainment due to their implementation in the Compact 
Program.
    Pursuant to an EPA study, the Compact Program was 
successful, gave local areas the flexibility to develop their 
own approach to meeting the ozone standard, provided 
communities with the tools to control emissions from local 
sources earlier than the Clean Air Act would otherwise require, 
and it improved air quality faster and promoted regional 
cooperation. Unfortunately, EPA scrapped the program due to 
litigation.
    Under S. 2072, State, tribal, and local governments would 
initiate the application process and craft a proposed compact 
plan for EPA's approval. Compact plans must ensure public 
involvement, provide credits for emission reductions, contain 
measurable milestones leading to attainment within 10 years, 
emission inventories, modeling, and planning for future growth. 
During the implementation period, the administrator agrees to 
withhold non-attainment designation so long as the compact is 
being implemented.
    S. 2072 puts local, tribal, and State governments in 
control of improving air quality, fosters cooperation with the 
EPA, and will provide true air quality improvements. So. 2072 
also requires EPA to issue separate guidelines for communities 
with winter ozone issues. These separate provisions are 
critical to ensure that winter ozone compacts will accommodate 
additional research and monitoring necessary for fully 
understanding this complex issue.
    S. 2072 provides a proven, bipartisan, and successful 
mechanism for communities to improve air quality without 
destroying their economies. This is the goal of S. 2072, and we 
urge the committee to approve this legislation.
    I thank you for the opportunity to testify today, and I 
would be happy to answer any questions that you may have.
    [The prepared statement of Mr. Raymond follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Capito. Thank you.
    Our final witness is Mr. Glenn Hamer, who is President and 
CEO, Arizona Chamber of Commerce and Industry.
    Welcome.

STATEMENT OF GLENN HAMER, PRESIDENT AND CEO, ARIZONA CHAMBER OF 
                     COMMERCE AND INDUSTRY

    Mr. Hamer. Thank you, Madam Chair, Ranking Member Carper, 
and members of the committee.
    My name is Glenn Hamer, and I am President and CEO of the 
Arizona Chamber of Commerce and Industry, and we are the 
leading statewide business advocate in Arizona.
    I appreciate the opportunity to testify here this afternoon 
about the challenges and the economic impact to Arizona and 
other States with a western focus of the EPA's new standard for 
ground-level ozone. I have also submitted for the record a 
written statement, along with a copy of our latest paper by the 
Arizona Chamber Foundation and Prosper Foundation, entitled A 
Clear and Present Danger: How the EPA's New Ozone Regulations 
Threaten Arizona's Economy. That is a more comprehensive 
examination of the issue.
    I would like to first thank the Chairwoman for her 
extraordinary leadership in sponsoring S. 2882. We were 
thrilled that earlier this month the House companion, H.R. 
4775, passed the House. This is arguably one of, if not the 
most important bills pending right now in the Congress for the 
State of Arizona, and I will explain why in a bit.
    We agree that delaying the implementation, the 70 parts per 
billion standard, is necessary, at the very least because it 
relieves the immediate burden of complying with it. But the 
legislation you have sponsored, Senator, also provides with the 
flexibility and the roadmap we need going forward. This is a 
smart piece of legislation.
    I also want to commend our State's Attorney General, Mark 
Brnovich, for leading the legal challenge against the new ozone 
rule in Federal court, which now nine other States have joined, 
including Oklahoma.
    The economic impact of the new one-size-fits-all national 
standard on Arizona and other western States is significant. 
The 70 parts per billion standard will be virtually impossible 
for Arizona and other parts of the country to meet. For Arizona 
it is because of our unique location in the southwestern region 
and because the primary sources of Arizona's ozone precursors 
are outside our State's control.
    Protecting Arizona's air quality is obviously of utmost 
importance to those here in Arizona. Tourism is one of our 
largest industries, and we want to make sure the air is clean. 
But the imposition of this new standard will unfairly punish 
Arizona for things we simply can't control.
    First, Arizona's No. 1 source of nitrogen oxide emissions 
is cars. Our State's location as a border State to Mexico and 
as a gateway to southern California means that Arizona's 
highways are heavily traveled. Yet because vehicle emissions 
are regulated at the Federal level, any possible reductions are 
really in the hands of the Federal regulators responsible for 
setting those standards. This says nothing of the cars crossing 
into the Arizona from Mexico that aren't even regulated by the 
U.S. Government.
    Second, Arizona has incredibly high levels of biogenic or 
naturally occurring background ozone. With our State's vast 
ponderosa pine forest and high incidents of wildfires and 
lightening--some are raging right now, unfortunately--biogenic 
ozone emissions account for 43 percent of Arizona's volatile 
organic compound emissions. In fact, major industrial sources--
this is an important point--only account for a mere 2 percent 
of nitrogen oxide emissions in Arizona's largest and most 
populous county, in Maricopa County, and just 1 percent of that 
county's VOC emissions.
    Third, Arizona receives a significant amount of ozone from 
California. This cross-border transmission is also referred to 
as interstate transport. The EPA does not permit exclusions for 
interstate transport, so even if our State's Arizona Department 
of Economic Quality proved that this ozone originated in 
California, a complicated and expensive process, Arizona is 
still being penalized for ozone we did not create.
    Fourth, Arizona receives significant international 
transport from Mexico, Canada, and Asia; and we like that this 
bill requires a study on that issue. But because of the EPA's 
rule, even if, again, we prove this, at great cost, we still 
would not be placed out of non-attainment status.
    Finally, almost 70 percent of the land in Arizona is tribal 
land or controlled and managed by the Federal Government. Yet, 
we are still held responsible for emissions originating there. 
Simply put, although Arizona has been making great strides from 
the regulation just put into place in 2008, we will be really 
hit very hard by this new regulation.
    I would like to also say we appreciate what Senator Hatch 
and Senator McCaskill are moving toward in S. 2072 in terms of 
providing additional flexibility. If I could leave the 
committee with a couple of thoughts, we need to make sure we 
get away from one-size-fits-all regulations. We simply can't 
penalize States and regions that have issues beyond their 
capability.
    In terms of Arizona, I just want to say that we are working 
very, very hard to do everything possible under the 2008 
standards to meet those, so for this to come up while we are 
making such great progress is a real problem. And again, we 
urge passage of the Chairwoman's very important legislation.
    Thank you.
    [The prepared statement of Mr. Hamer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Capito. Right on the number there.
    Thank you all very much for your testimony, and I will 
begin the questioning.
    First of all, let me just make a statement. Neither one of 
these bills would raise the standard of ozone allowed in the 
atmosphere; it simply is asking for flexibility, longer 
timelines, and to wait until some of the places that haven't 
been able to get into attainment catch up before they are 
further asked to squeeze down, which we have heard from Mr. 
Chesley, obviously causing an issue.
    I did not realize, but I learned today, that one-third of 
the 38 million people living in California don't meet the 
standard, the 2008 standard. I think that is what our testimony 
was. So, Mr. Chesley, can you tell me what is the deadline for 
the San Joaquin Valley to comply with the 2008 ozone standard, 
the 75 parts per billion?
    Mr. Chesley. Chair, I would actually prefer Mr. Karperos to 
answer that specific question, but I have to say that what we 
are doing in the San Joaquin Valley in terms of trying to 
address those various standards that have been set, we have, I 
think, 11 different ones that we have to be able to meet, 
comply with this on this has been heroic and herculean. In 
terms of the standards themselves, we are prepared to meet 
those standards, but we need a schedule to do it that actually 
is achievable and that does not place valuable public policy 
interests, such as transportation infrastructure, at risk.
    Senator Capito. Right. I think the testimony was somewhere 
around 2031, 2032 for California.
    Mr. Chesley. Yes. Yes.
    Senator Capito. Right. So that is an extension. That is a 
longer timeline for California to be able to meet the standard 
to be able to hang on your transportation dollars and also some 
of your economic development issues. So, in my view, that is an 
acknowledgment from EPA that just extending the deadlines is 
not necessarily an advocacy for dirtier air or having a higher 
ozone standard. They are trying to, at least in the case of 
California, build into the flexibility that I hear other 
members of the panel are asking.
    It was also testified that delay increases costs. The costs 
to California obviously are going to be very good. I think the 
part of the bill, my bill that says that we are going to have a 
study that submits and looks into the impacts of emissions from 
foreign countries, in my view, that would be welcomed, I think, 
nationally, particularly from the State of California, Arizona, 
and others on the West Coast.
    Mr. Hamer, the 2015 ozone standard saddled States with 
significant new costs, one of which we heard is just the cost 
of actually performing the tests and figuring out where you 
are. That is not a reason to not do them, but I think some 
flexibility there and some better technologies would probably 
help as well.
    The Director of Environmental Protection in West Virginia 
pointed out that the EPA has admitted that 30 percent of the 
controls necessary to achieve the NAAQS at 70 parts per billion 
are unknown. In other words, 30 percent of the technologies 
that are going to be needed to meet the new standard are still 
undiscovered or untested or unable to be put into an economic 
model that can be actually used.
    So you mentioned to me, when I first met you, that Maricopa 
County just now achieved the status of attainment. What do you 
envision for your largest county in your State to be able to 
move forward under a 5-year timeline as opposed to, say, a 10-
year timeline?
    Mr. Hamer. Madam Chair, thank you for that thoughtful 
question. There is a difference between difficult to meet and 
impossible to meet right now, and we are in the impossible to 
meet. So out of the 10 counties in Arizona that have had to go 
and to work to meet the 75 per parts standard, 9 of those 
counties, including those in our most populous regions, would 
be out of attainment.
    You mentioned another important part, that the EPA has 
acknowledged that there should be flexibility, given the action 
they have taken in California. We have been working very, very 
hard, since 2008, which is not that long ago, to implement the 
75 per part standard.
    But Yuma County would be a good example. In fact, our 
director of the Department of Environmental Quality, Misael 
Cabrera, recently testified before the House Energy and 
Commerce Subcommittee and he specifically mentioned Yuma as a 
place where there is not a lot of industry, but because of the 
geographic region, right next to California and Mexico, it 
would simply be impossible for that county to become in 
compliance with the new standard.
    Senator Capito. Thank you very much.
    I would now like to recognize my cosponsor on S. 2882, 
Senator Flake from Arizona, to make an opening statement about 
the bill.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
             U.S. SENATOR FROM THE STATE OF ARIZONA

    Senator Flake. Well, thank you so much, Madam Chair. I 
appreciate you and Ranking Member Carper allowing me to speak 
in support of the Ozone Standards Implementation Act. I am 
pleased to join the Chairwoman in sponsoring this bill.
    Since I testified last June on ozone reform, the EPA 
finalized its rule on the ozone emission standard at 70 parts 
per billion. In my opinion, this rule demonstrates complete 
tone deafness on the part of the EPA, and it is particularly 
detrimental, as we were hearing, to my home State of Arizona, 
where the impacts of the EPA's failed air regulatory regime are 
apparent. With these costly compliance requirements, this rule 
will burden counties and businesses already working in good 
faith, as we have heard, to meet the previous standard.
    I am particularly pleased to see Glenn Hamer here 
representing the Arizona Chamber, giving a perspective from 
Arizona businesses that are trying, in good faith, to meet 
these standards, but were very much, in the case of the EPA 
changing the rules in the middle of the game.
    I, for one, believe it is time for Congress to step in, and 
this legislation includes a provision from the bill that I 
introduced previously, called the Ordeal Act, that would change 
the mandatory review of National Ambient Air Quality Standards 
from 5 to 10 years. Among other provisions, the legislation 
also phases in implementation of the 2000 and 2015 ozone 
standards, extending the compliance date for the 2015 standards 
to 2025. It remains crucial that States have the flexibility 
and the time to implement their own innovative and proactive 
measures here.
    Now, in response to the EPA tightening the standard despite 
public outcry, I introduced a congressional resolution that 
would permanently halt the implementation of EPA's final rule 
on ozone tightening. I can tell you the outcry has not dimmed 
in my State. I hear it statewide with the decision of the 
attorney general to file suit over the rule and to be joined by 
other States in that effort.
    I hear it in Phoenix as members of the business community, 
such as Glenn here, realize that it is impossible, not just 
difficult, but impossible for Arizona to ever comply with that 
standard. And most recently my staff in Yuma attended a Board 
of Supervisors work session on this very topic, just last week, 
hoping to find a way to be protected from this last tightening. 
This effort I pledge to work on and achieve.
    I am pleased that Congress is focusing on this and other 
legislative remedies. I am committed to pushing this 
legislation and will continue to introduce provisions providing 
regulatory relief and flexibility to lessen the impact of this 
devastating rule on Arizona's community.
    With that, Madam Chair, thank you so much for allowing me 
to speak.
    Senator Capito. Thank you.
    I will turn it over to the Ranking Member, Senator Carper.
    Senator Carper. Thanks.
    Senator Flake, always good to see you. Thank you for doing 
this today. I know you have other things to do. If you could 
just stay for a couple minutes.
    I make a unanimous consent request, if I could, to enter a 
couple letters from the environmental and health community 
expressing, believe it or not, opposition to S. 2702 and S. 
2882. I would also like to ask unanimous consent to enter into 
the record taxable assistance from EPA that provides a 
description on the EPA's earlier Early Action Compact Program, 
as well as a comparison between the agency's earlier Early 
Action Compact Program and S. 2702, and a conclusion that S. 
2702 could result in delayed reduction of pollutants.
    Since Senator Boxer is going to be unable to join us today, 
she has asked that I ask unanimous consent that her statements 
be entered into the record.
    Senator Capito. Without objection.
    Senator Carper. Thank you so much.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Carper. The situation that they face in Arizona 
reminds me of the situation that we have faced in Delaware, and 
I have explained that here before. When I was Governor of 
Delaware, we could basically shut down our State's economy and 
still have been out of compliance because of all the pollution 
that is put up in the air to the west of us, States to the west 
of Delaware and the west of Maryland and so forth. So I am not 
unsympathetic to the concerns that he raised.
    My staff has given me a map of the United States, and it is 
too small for me to share with all of you, but it is a map of 
the United States with a look ahead to 2025. It says EPA 
projects that the vast majority of counties across the country 
would meet the updated ozone standards in 2025 without 
additional actions to reduce pollution. The map shows that they 
still have quite a bit to do in California, but most of this 
map is like there are no markings on the States, and it looks 
they are free of any kind of additional actions that would be 
required to be in compliance in 2025.
    I don't know who to ask here, but maybe Mr. Karperos, can 
you take maybe a minute or two and show us how States can 
address out-State pollution and their State implementation 
program? I believe there are Federal programs already being 
implemented that could go a long way to help reduce ozone 
pollution across the country. As a result, I am told that only 
15 counties outside of California are expected to be in non-
attainment by 2025. None of these counties expect to be out of 
attainment in 2025 are in Arizona.
    Is that your understanding?
    Mr. Karperos. In my review of the modeling that U.S. EPA 
did to lead to the map that you were showing, Senator, it is my 
understanding that, yes, without any additional programs, just 
implementation of the programs that are on the books, that 
Arizona would achieve both the 70 and the 75 parts per billion 
standard.
    I am not surprised by that. A similar situation in 
California. We currently have approximately 19 areas that we 
would expect, if the designations would be made today, would be 
non-attainment for the 70 parts per billion standard. By the 
time the designations are made next year, I expect it to be 
much fewer than 19.
    There are a number of Federal programs that are absolutely 
critical for dealing with this sort of situation and the 
transport of emission from upwind. Certainly, Federal vehicle 
standards are critical of the Clean Power Plan, and the 
interstate provisions that EPA administers to help shield the 
downwind States for responsibility for emissions that are 
currently impacting downwind.
    So there are critical provisions that the Federal 
Government needs to implement. In particular, when it comes to 
both California attainment, as well as attainment throughout 
the State and then downwind, Federal action to tighten 
standards for trucks and locomotives is absolutely critical. 
Right now we are partnering with U.S. EPA and the engine and 
truck manufacturers, as I said in my opening statement, to 
demonstrate that trucks, just by optimizing the technology that 
is on the trucks today, would be 90 percent cleaner.
    That sort of Federal action, similar action on locomotives, 
absolutely critical. There is sort of a two-fer in that sort of 
issue: the emissions blow downwind plus those trucks drive 
downwind. So you are getting actually a two-fer for that sort 
of Federal action. Absolutely critical.
    Senator Carper. All right, thanks for that clarification.
    Sometimes, Madam Chair and colleagues, I think people think 
that they wake up in the morning over at EPA and they say, 
well, what can we tighten up today to make life miserable for 
the other States. As it turns out, my understanding is that EPA 
gets sued, not every day, but they get sued a lot because they 
are not doing enough to comply with the laws that are already 
in the books, and then they get sued because they are trying to 
comply, work something out and comply with these laws that were 
adopted under Republican administrations, if you can believe 
that.
    EPA putting out every 5 years these standards for ozone, 
why do they do this? Dr. Rice, why do they do this? Are they 
doing this on a whim? Is there some kind of requirement that 
they do this?
    Dr. Rice. So the EPA is required to review the medical 
evidence at regular intervals so that----
    Senator Carper. Required by law?
    Dr. Rice. By law in order to incorporate the most up to 
date science and health standards that they set.
    Senator Carper. If they didn't do that, would they be sued?
    Dr. Rice. I believe they would be.
    Senator Carper. Yes, they would.
    Dr. Rice. I would like to make the point that that is 
particularly relevant for the health of children. So, for 
example, if we delay the review period for another 10 years, 
that means that findings that have been made about ozone, which 
there have been in the last few months, won't even be 
considered until 2025 at the earliest.
    That means that babies that are born today, they are 
already going to be in grade school, and children's lungs 
continue to develop after they are born all the way until they 
are teenagers. There is evidence to show that air pollution is 
harmful for child lung development. So it is a big deal.
    Senator Carper. OK, thank you.
    My time has expired. Madam Chair, I would just say those of 
us whose roots are in West Virginia were raised by parents who 
believe in common sense. Maybe you and I can just sit down with 
our staffs and just figure out how we can use some common 
sense. Those of you who express some interest particularly in 
some changes to, I don't know, legislation that pertains to 
transportation projects and that kind of thing, I would be 
interested in a further conversation with you folks too. Thank 
you.
    Senator Capito. Sounds good. Thank you.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chairman. I would say, 
Senator Carper, Rhode Island and Nebraska have common sense as 
well, so I know Senator Whitehouse and I would be happy to join 
in any discussion.
    Senator Carper. Well, I heard Rhode Island has common 
sense.
    Senator Fischer. Oh, now, just a minute. Come on.
    [Laughter.]
    Senator Fischer. No. Nebraska, we are known for our common 
sense. Please.
    Senator Carper. Oh, that is right. I am sorry.
    Senator Fischer. Mr. Hamer, nice to see you again. The EPA 
updated ozone standards in 2008. However, the EPA delayed 
implementing the 2008 ozone standard for 2 years while it 
pursued reconsideration. States are now catching up with 
implementing that standard, particularly since the EPA just 
issued implementation rules for the standard last March. And 
now EPA has finalized a new ozone standard that overlaps with 
the 2008 standards.
    So do implementation delays like this challenge local 
communities and businesses that are tasked with putting ozone 
air standards in place? And would legislation that we are 
discussing today help to mitigate this type of harm?
    Mr. Hamer. Senator Fischer, very nice to see you again. It 
is a great question and the issue that you are raising is that 
while this new standard is finalized in 2015, Arizona continues 
to make sure that it has everything buttoned up with the 2008 
regulations.
    The new regulation certainly ratchets things up in a way 
that we believe is impossible to meet at this time for the 9 
out of the 10 counties that are already monitored. But it is a 
very, very difficult situation. And I am trying to put this in 
concrete terms.
    So here you have areas that are becoming in attainment, and 
they are able to get the permits and do the things they need so 
manufacturers could add jobs and things like that, and now you 
have this new standard that would clearly throw big areas of 
Arizona and other portions of the country out of containment. I 
mean, this map really gives an idea. It is not just an Arizona 
thing. They may have a disproportionate effect on the West, but 
this hits a lot of different parts of the United States.
    And again, I just want to say that we are deeply concerned 
about clean air in Arizona, deeply concerned. Human beings like 
moving to our State. We are now the 14th largest State in the 
country. We just passed Massachusetts.
    Senator Carper, you began your statement----
    Senator Fischer. This is my time.
    Mr. Hamer. Oh, I am sorry. But I was going to tie it to 
your question.
    Senator Fischer. OK.
    Mr. Hamer. The issue is there is a formula that brings, 
just like with the legislation that the President signed, there 
is a formula that brings industry, environmental groups, States 
together in a common sense way so we move away from one-size-
fits-all legislation.
    Senator Fischer. Right. And in the policy brief that you 
included with your testimony, it discusses exceptional events, 
and it describes them as an event natural or caused by human 
activity that affects air quality is unlikely to occur and 
cannot be reasonably controlled or prevented.
    This past spring Nebraskans were affected by two events, 
the Anderson Creek fire from Kansas and Oklahoma, as well as 
the Alberta wildfires, and that did result in air quality 
issues in the State of Nebraska. So if air quality standards 
were exceeded because of these wildfires, it seems as though 
they should be considered exceptional events under the Clean 
Air Act so that Nebraska can exclude them from regulatory 
consideration.
    In your experience, can you describe how successful States 
have been in having submissions for these exceptional events 
granted by the EPA and what the costs are associated with that 
process, and what is the typical timeframe that we can see when 
the EPA is going to make a decision on those?
    Mr. Hamer. Senator, thank you for that question. And I want 
to just commend Senator Flake for his extraordinary leadership 
here. He has been a leader in the Congress on dealing with 
exceptional events. I think he has put the word haboob in the 
national lexicon. And those are things you can see from outer 
space. It still is very, very difficult and very, very 
expensive to work with the EPA to get these exceptional events 
designated.
    Now, I will say we are making progress, but here is another 
area----
    Senator Fischer. How long does it take? What are the costs?
    Mr. Hamer. I hope I am completely accurate, but I believe 
it is about 4 to 8 months. Some of these, according to our 
Arizona Department of Environmental Quality, could cost $50,000 
per event. That is real money for a State government. Some take 
longer and some cost more.
    Again, the legislation that is pending before this 
committee is vitally important to including exceptional events 
as something to be considered.
    Senator Fischer. Thank you very much.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    As is often the case, where you are helps determine where 
you stand on these things, and like Senator Carper, where I am 
is Rhode Island, and Rhode Island is a downwind State. I 
distinctly remember driving to work in the morning on a nice 
summer day and hearing the radio station tell me that today is 
a bad air day in Rhode Island and that children and elderly 
folks and people with breathing conditions should stay indoors.
    There wasn't much that we could do about it because most of 
this came from out-of-State sources that were pumping it up 
into the sky, and then it was drifting over Rhode Island. 
Particularly NAAQS wasn't being sun treated during that time, 
and by the time it hit Rhode Island we were not in attainment, 
and there wasn't a thing we could do about it.
    So the enforcement of these standards has meant a big deal 
to Rhode Island. We are back in attainment; our bad air days 
are diminished; there are fewer asthma and hospital visits. And 
that is all very real to people in Rhode Island.
    We are still looking at plants in West Virginia and 
Pennsylvania that, by my calculation, are releasing 45,000 tons 
more of NAAQS than they did just 7 years ago, which suggests 
that it is not either the best technology or they are not 
operating it at efficiency, that they have tailed off and 
haven't upgraded their protections. So we downstream States 
take this very, very seriously.
    To add to what Senator Carper said, if they are local 
conditions, like in Uintah Basin there is a peculiar geographic 
phenomenon that you can't get around, we are more than happy to 
work with you on something like that. If there is a particular 
unique event like a forest fire. But anything that takes a 
broad cut at the baseline standards here puts States like mine 
in real peril, and it is very frustrating.
    Let me ask a question. Let me ask Mr. Karperos. Clearly, 
you would concede that there are costs to cleaning up air and 
avoiding ozone and so forth, correct?
    Mr. Karperos. Absolutely, Senator.
    Senator Whitehouse. And would you also concede that there 
are benefits and values from having cleaned up air?
    Mr. Karperos. Yes.
    Senator Whitehouse. What would you think of a study that 
counted the costs to clean up the air but didn't count the 
value or the benefits from the cleaned up air?
    Mr. Karperos. Missing half the equation.
    Senator Whitehouse. Yes. Pretty basic? Are there values, 
for instance, the value of a child being able to play outside, 
that are hard to put a monetary value on, but that ought to 
count in considering whether or not the air should be clean?
    Mr. Karperos. Oh, absolutely. I would agree with you 
completely.
    Senator Whitehouse. So if you go to a purely monetary 
standard, you are likely to understate the benefits.
    Mr. Karperos. Yes.
    Senator Whitehouse. And there is a place in Mr. Hamer's 
testimony. By the way, welcome back. I really enjoyed working 
with Senator Kyl. Any staffer of his I am for, so than you for 
being back here.
    Mr. Hamer. Thank you, Senator.
    Senator Whitehouse. You say in your testimony, this would 
be a question for Dr. Rice, some studies, while inconclusive, 
suggest that ground level ozone, on its own or when mixed with 
other potential pollutants such as particulate matter, can have 
adverse health consequences like asthma and bronchitis.
    Let me ask you first, Dr. Rice, is this an area in which 
you have some expertise?
    Dr. Rice. Yes, it is, Senator. I study air pollution in 
addition to taking care of patients.
    Senator Whitehouse. And how do you react to the suggestion 
that the studies that link ground level ozone to health 
consequences like asthma and bronchitis are inconclusive?
    Dr. Rice. I disagree with that statement. There is a 
preponderance of evidence spanning decades of ozone, chamber 
studies, observational studies, looking at thousands and 
thousands of people, and they have conclusively shown that 
there health effects of ozone exposure, particularly for the 
lungs.
    Senator Whitehouse. As we go forward and as people learn 
more about these illnesses and how the pollutants relate to the 
illnesses, are there scientific advancements that are made that 
can indicate that the standard needs to change?
    Dr. Rice. Certainly, Senator. The Clean Air Act is an 
amazing success story, and air quality has improved 
dramatically, and that has allowed us to look at the health 
effects of air pollution exposure at lower and lower levels. In 
my own research, I found that exposure to ozone within the 
previous standard caused the lung function of healthy people to 
be worse, and that is one small piece of information that is 
added to the wealth of research that has been informing how the 
EPA sets air quality standards.
    Senator Whitehouse. And if in fact it is scientific 
evidence about human health that drives the change in the 
exposure levels, is it fair to describe that as just changing 
the rules in the middle of the game?
    Dr. Rice. Can you explain that better? I am not I 
understand the question.
    Senator Whitehouse. We had a comment earlier that to change 
this is the equivalent of changing the rules in the middle of 
the game.
    Dr. Rice. Right.
    Senator Whitehouse. If you are changing the rules because 
the science indicates that that is where the safe level is, is 
that a fair characterization of what is going on to just call 
it changing the rules in the middle of the game?
    Dr. Rice. Certainly not. I wouldn't put it that way. The 
rules have all along been that the EPA is obligated to set air 
quality standards based on the protection of human health with 
an adequate margin of safety. As we learn more and more about 
the health effects of air pollution, we have set those 
standards lower and lower because we want to protect the health 
of adults and of children.
    Senator Whitehouse. Thank you, Chairman.
    Senator Carper. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Madam Chair. I thank you for 
this hearing. I was here listening to most of the 
presentations, then I had a meeting in my office and was 
listening to the question and answer, and I just really wanted 
to come back and thank particularly Dr. Rice and Mr. Karperos 
for your comments in regards to the health related issues, 
because I think that is the key point.
    Dr. Rice, I was reading your testimony in preparation for 
today's hearing, and I was impressed by the fact, if I asked 
the people in Maryland what the difference is between 75 or 65 
ppbs, they wouldn't have the faintest idea what I am talking 
about. But they do know the impact of a bad smog day, and 
parents particularly know that when I hear from parents that 
they can't let their kids go to camp on a given day. And then 
the parents stay home from work, and they see the impact of 
that.
    I want you just to elaborate a little bit more because one 
would say, well, is reducing it by this amount, does it really 
make any difference? What does 1 ppb really mean? And I was 
impressed by your written testimony where you indicated that 
each point means people are going to be dramatically impacted. 
Can you just tell us the difference on these standards as to 
what it means?
    Dr. Rice. Certainly, Senator Cardin. So ppb refers to parts 
per billion. It is a concentration of the pollutant in the air, 
and the standard is set according to an average over 8 hours. 
But what we are really talking about is relationships between 
how high the level of the pollution is and health effects.
    So if I can give you another example, in the city of 
Atlanta during 1996, during the Olympics, there were changes 
that were made that reduced the level of traffic in the city 
for a short interval during the Olympic Games. When scientists 
looked back at the experience during those Olympics, not only 
did traffic levels go down, but ozone concentrations went down 
from 80 ppb to 60 ppb. That resulted in a 44 percent decrease 
in asthma admissions for kids during that time interval who 
were on Medicaid.
    So there are real children. When you looked at the rate of 
kids coming in with asthma attacks before the Olympics, you 
looked at the rate during the Olympic period, and then you 
looked at it afterwards, you found that there was a real 
decrease in the number of kids getting sick when the ozone 
level decreased.
    Senator Cardin. Mr. Karperos, California is usually used as 
the example of the State where the challenges are the greatest. 
Your testimony is that this rule is doable and that California 
will be able to move forward and be able to accomplish this. So 
these are achievable goals?
    Mr. Karperos. Thank you, Senator Cardin. Absolutely they 
are achievable goals. The San Joaquin Valley, to use an 
example, an extreme non-attainment area, one of the two in the 
Nation, has achieved the 1-hour ozone standard. They have 
developed a plan and are in fact implementing the plan and U.S. 
EPA has approved the plan for attainment of the 80 ppb standard 
in 2023.
    Just last week, the local air district adopted a plan to 
achieve the 75 ppb standard in 2031. Part of my written 
testimony was that ARB staff report reviewing that plan saying 
it meets all the requirements of the Clean Air Act. In fact, it 
is the Clean Air Act for the reason they have made sort of 
progress.
    Finally, my agency will be considering a plan to further 
reduce emissions from cars and trucks that we think for the San 
Joaquin Valley, again, to use them as an example, will provide 
most, if not all, of the reductions needed for the 70 ppb 
standard even before it is designated non-attainment.
    Senator Cardin. Of course, what the law envisions this 
review to be done is to determine, first and foremost, what the 
health standards should be to protect the public health of our 
children and our families and our population; and then, second, 
it needs to be within a realm of what can be achieved, because 
otherwise it would not be achievable and we wouldn't have 
effective regulations.
    From your testimonies, you believe that this change is, 
first, needed for the purposes of public health and can be 
achieved; and if we do stick with this schedule, families will 
be healthier and will save not only misery, but will also save 
resources in regards to health care and lost days at work, and 
things on that line.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    I think that concludes. I thought Chairman Inhofe might 
return, but he has been detained, so I would just like to thank 
the witnesses.
    Just a final 2-second comment. I would like to say to 
Senator Carper that I certainly want to look for common sense 
solutions, ways to maybe massage the issue to make it so that 
some of the concerns that we have heard voiced today would be 
addressed. But I would also like to point out that the title of 
the hearing is Examining Pathways Toward Compliance.
    So I think that shows that we are on the same pathway. 
Sometimes we try to get there different ways. Hopefully we can 
get together and find some easier methods for some folks who 
are having more difficulty.
    Thank you all very much. With that, I will call the meeting 
adjourned. Thank you.
    [Whereupon, at 3:50 p.m. the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
